                                                                Issue Date
                                                                         April 10, 2007
                                                                Audit Report Number
                                                                             2007-DE-1005




TO:        Marcia D. LaPorte, Director, Denver Multifamily Hub, 8AHML


           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 8AGA

SUBJECT: Rocky Mountain Mutual Housing Association, Denver, Colorado,
           Paid Ineligible Owner Expenses


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Rocky Mountain Mutual Housing Association (Association), a
             nonprofit that develops and manages U.S. Department of Housing and Urban
             Development (HUD)-subsidized multifamily properties. We decided to perform
             an audit of the Association based on an anonymous tip. We wanted to determine
             whether the nonprofit inappropriately paid owner expenses.

 What We Found


             The Association did not always follow HUD disbursement requirements when
             paying owner-related expenses. The nonprofit was unfamiliar with HUD
             requirements relating to owner expenses and believed that the expenses were
             eligible. These violations could deprive the properties of almost $28,000 needed
             to pay reasonable operating expenses and for necessary repairs.




                                             1
What We Recommend


           We recommend that HUD ensure that the Association repays almost $28,000 to
           the properties. We also recommend that the director of HUD’s Departmental
           Enforcement Center consider imposing civil money penalties against the
           Association for the payment of ineligible expenses that violated the regulatory
           agreements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           The Association generally agreed with the finding. However, they disagreed with
           the assertion that the payment of owner expenses did not allow the properties to
           pay reasonable operating expenses and necessary repairs. The Association also
           disagreed with the second recommendation and believed it was unwarranted. The
           complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                       4

Results of Audit
      Finding: The Association Paid Ineligible Owner Expenses   5

Scope and Methodology                                           7

Internal Controls                                               8

Appendixes
   A. Schedule of Ineligible Costs                              9
   B. Auditee Comments and OIG’s Evaluation                     10




                                           3
                      BACKGROUND AND OBJECTIVES

Rocky Mountain Mutual Housing Association (Association) was created in 1992 as a nonprofit
to renovate or construct, own, and manage affordable housing. During the review period, the
Association managed more than 1,000 units at six U.S. Department of Housing and Urban
Development (HUD)-subsidized properties. It had an ownership interest in five of the
properties. The Association has experienced financial difficulties in the last few years, primarily
because of overleveraging and a declining rental market in the areas in which its housing is
located. During this period, the Association’s properties were not generating enough revenue to
offset expenses and provide surpluses. The Association deferred its management fees and loaned
operating cash to the properties. Since the Association had to borrow funds to maintain the
properties, its going concern became in question. To remain viable, the Association began
working to consolidate its operations. It raised cash by selling one property and is trying to sell a
second. It is also in the process of negotiating a partial claim from HUD on another property.

Of the four properties in which the Association still had an ownership interest, two were in
excellent physical condition and two were in good condition. As of August 31, 2006, these four
properties owed the Association more than $661,000, and the Association had written off
receivables of more than $591,000 from two of the properties.

We wanted to determine whether the Association inappropriately paid owner expenses.




                                                 4
                                RESULTS OF AUDIT

Finding: The Association Paid Ineligible Owner Expenses
The Association used operating funds to pay ineligible owner expenses in fiscal year 2005. It
was not fully familiar with HUD requirements relating to owner expenses and believed that the
expenses were eligible. Using funds to pay owner expenses when the multifamily property is
operating at a deficit could deprive the development of cash needed to pay reasonable operating
expenses and for necessary repairs.




 Ineligible Owner Expenses


              The Association used operating funds to pay almost $28,000 in ineligible owner
              expenses in fiscal year 2005. Three HUD-subsidized developments paid the
              owner expenses. The regulatory agreements for these developments limit
              payments to reasonable operating expenses and necessary repairs. HUD
              considers the payment of owner expenses to be owner distributions and only
              allows the payment of owner expenses with surplus cash. The three multifamily
              properties did not generate surplus cash during the review period.

              The owner expenses paid by the developments included audit fees to prepare
              partnership tax returns, legal fees to research bond financing issues and a property
              sale, and directors’ and officers’ insurance. HUD only allows payment of
              directors’ and officers’ insurance from operating funds if the development is a
              nonprofit. The Association charged the insurance to all of the developments in
              which it had an ownership interest. However, two of them were profit motivated.
              HUD may authorize the insurance payments by a for-profit entity. However, in
              this case, the Association did not have prior written approval from HUD. The
              table on the next page identifies the properties that paid owner expenses.




                                               5
                                                                                            Directors’
                                                                                                 &
                                              Partnership     Legal fees -   Legal fees -    officers’
                     Properties               tax returns       bonds           sale        insurance     Totals
                      Garden Court                       -          3,574         10,000        3,545     17,119
                      Meeker Commons1                6,978              -              -         3502      7,328
                      Willow Grove                   3,489              -              -            -      3,489
                      Totals                        10,467          3,574         10,000        3,895     27,936



    HUD Rules Not Understood



                   The Association was not fully familiar with HUD requirements relating to owner
                   expenses and believed that the expenses were eligible. It should have determined
                   whether all paid expenses benefited the operations of the property or the
                   ownership entity. Once the Association determines that an expense benefits the
                   ownership entity, it needs to ensure that it only pays that amount out of surplus
                   cash. The Association was not aware that it had violated the regulatory
                   agreements. After we informed the Association of the ineligible expenses, it
                   repaid all of the expenses to the properties.


    Funds Not Available for
    Operations

                   Using funds to pay owner expenses when the multifamily property is operating at
                   a deficit could deprive the development of cash needed to pay reasonable
                   operating expenses and for necessary repairs. The Association agreed to treat
                   owner expenses properly in the future and work with HUD to resolve the finding.

    Recommendations

                   We recommend that the director of the Denver Multifamily Hub

                   1A.      Ensure that the Association repaid the $27,936 to the properties.

                   We also recommend that the director of HUD’s Departmental Enforcement
                   Center consider

                   1B.      Imposing civil money penalties against the Association for the payment of
                            ineligible expenses that violated the regulatory agreements.


1
    Meeker Commons defaulted on its mortgage in January 2006.
2
    The management agent billed Meeker Commons more than $1,200 for directors’ and officers’ insurance.
     However, it only received $350 of the outstanding balance.


                                                         6
                        SCOPE AND METHODOLOGY

Our review covered the period from September 30, 2004, through October 1, 2006.

To accomplish our objectives, we reviewed the pertinent records of the HUD-subsidized
developments. We tested the cash controls for project funds, reliability of information in the
projects books and records, and appropriateness of disbursements and the cost allocation
methods. We selected a sample of invoices to review. Our sample targeted high-risk and
material expenditures and was selected from fiscal year 2005 disbursements totaling $6.8 million
from six HUD-subsidized multifamily developments. The Association had an ownership interest
in five of the properties. We reviewed the supporting documentation of expenditures totaling
$4.4 million. We selected expenditures from the largest vendors of each development. For
certain expenses, such as professional fees, we reviewed all of the transactions. We also
interviewed officials and staff of both HUD and the nonprofit.

We did not rely on computerized data but instead traced all data to source documents.

We performed our fieldwork from November 6 to December 19, 2006. The Association is
located at 225 East 16th Avenue, Denver, Colorado.

We performed our review in accordance with generally accepted government auditing standards.




                                               7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Policies, procedures, and practices that management has implemented to
                      ensure proper allocation of expenses and salaries to the properties.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives


 Significant Weaknesses


              We did not identify any significant weaknesses.




                                                8
                                   APPENDIXES

Appendix A

                 SCHEDULE OF INELIGIBLE COSTS

                 Recommendation number                           Ineligible 1/

                           1A                                        $27,936



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.




                                             9
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         10
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         11
                             OIG Evaluation of Auditee Comments

Comment 1

We changed the wording in the Highlights and Finding sections to show that the payments
"could" deprive the projects of funds necessary to pay reasonable operating expenses and
necessary repairs. While the Association may be able to offset the immediate effects of these
types of payments by not taking its earned fees, or by writing off receivables, its ability to do so
in the future is not guaranteed. Depending on the future condition of the properties and the
Association, these types of payments could have an adverse effect on the properties. The
examples cited by the RMMHA Association in its response were already disclosed in the
background section of the report.

Comment 2

We left the recommendation unchanged because we believe it is appropriate in this situation for
HUD to evaluate the circumstances of the ineligible payments and assess appropriate penalties.




                                                 12
